2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

Legal Briefs

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-7
SEILA LAW LLC,
Petitioner,

v.
CONSUMER FINANCIAL PROTECTION BUREAU,

Respondent.

AFFIDAVIT OF SERVICE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 13th day of December, 2019, send
out from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE CENTER FOR
CONSTITUTIONAL JURISPRUDENCE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to
be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JOHN C. EASTMAN
Counsel of Record
ANTHONY T. CASO
The Claremont Institute
Center for Constitutional
Jurisprudence
c/o Chapman University
Fowler School of Law
One University Drive
Orange, CA 92866
(877) 855-3330
jeastman@chapman.edu

Counsel for Amicus Curiae
Center for Constitutional Jurisprudence

Subscribed and sworn to before me this 13th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

State of Nebraska

General Notary ie 0 Clie Qudraw-K Gh

My Commission Expires Nov 24, 2020

 

 

Notary Public

39043
 

Attorneys for Petitioner

Kannon K. Shanmugam Paul, Weiss, Rifkind, Wharton & Garrison LLP

Counsel of Record 2001 K Street, N.W.
Washington, DC 20006

kshanmugam@paulweiss.com

Party name: Seila Law LLC

202-223-7300

 

Attorneys for Respondent

Noel J. Francisco Solicitor General
Counsel of Record United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

Party name: Consumer Financial Protection Bureau

202-514-2217

 

 

Other
Paul D. Clement Kirkland & Ellis LLP
Counsel of Record 1301 Pennsylvania Avenue, NW.

Washington, DC 20004

paul.clement@kirkland.com

202-389-5000

Party name: Court-appointed amicus curiae in support of the judgment below on the

question presented by the petition

 

 
